                                Office of Inspector General
                               Corporation for National and
                                        Community Service




     AGREED-UPON PROCEDURES REVIEW OF
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
      SENIOR CORPS GRANTS AWARDED TO
    COUNCIL ON AGING OF VOLUSIA COUNTY, FL

              OIG REPORT NUMBER 07-17




                        Prepared by:

               Office of Inspector General
                Washington, DC 20525




This report was issued to Corporation management on August 27, 2007. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report’s findings and recommendations no
later than February 27, 2008, and complete its corrective actions by August 27,
2008. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                          OFFICE OF INSPECTOR GENERAL

                                         August 27, 2007



TO:           Rocco Gaudio
              Director, Field Financial Management Center

              Darryl James
              Southern Cluster Manager

FROM:         Carol Bates (signature on file)
              Assistant Inspector General for Audit

SUBJECT:      Office of Inspector General Report 07-17, Agreed-Upon Procedures Review of
              Corporation for National and Community Service Senior Corps Grants Awarded
              to Council on Aging of Volusia County, FL

Attached is the final report on our application of agreed-upon procedures to the Senior Corps
grants awarded by the Corporation to Council on Aging of Volusia County, Florida.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by February 27, 2008. Notice of final action is due by August 27, 2008.

If you have any questions pertaining to the report, please contact Ronald Huritz, Audit Manager,
at 202-606-9355.

Enclosure

cc:    Gail Camputaro, Executive Director, COA of Volusia County, FL
       Elizabeth Seale, Chief Operating Officer
       Nicola Goren, Chief of Staff
       Tess Scannell, Director, Senior Corps
       William Anderson, Deputy Chief Financial Officer
       Sherry Blue, Audit Resolution Coordinator
       Michael Berning, Director, Field Liaison
       Suzanne Richards, Director, Florida State Office
       Ronald Huritz, OIG Audit Manager
       Shamika Scott, OIG Auditor




                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                         202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                          Senior Corps   AmeriCorps   Learn and Serve America
                               AGREED-UPON PROCEDURES APPLIED TO
                          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                        GRANTS AWARDED TO
                            COUNCIL ON AGING OF VOLUSIA COUNTY, FLORIDA


                                                             CONTENTS

Section                                                                                                                           Page

Executive Summary ...........................................................................................................         1

Background ........................................................................................................................   1

Agreed-Upon Procedures Scope ........................................................................................                 1

Summary of Results ........................................................................................................... 2

Summary of Questioned Costs…………………………………………………………… 3

Exit Conference ..................................................................................................................    3

Results of Agreed-Upon Procedures ..................................................................................                  3




Appendices

A: Agreed-Upon Procedures
B: Council on Aging of Volusia County’s Response to Agreed-Upon Procedures Report
C: Corporation’s Response to Agreed-Upon Procedures Report
                                  EXECUTIVE SUMMARY


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an agreed-upon procedures (AUP) review of Senior Corps grants
awarded to the Council on Aging of Volusia County, FL (COA). The Corporation was
concerned about the COA’s inability to provide a general ledger to support claimed costs.
We performed this review at the request of the Corporation’s Southern Service Center and
Florida State Office. The purpose of the review was to determine whether some categories of
Federal costs claimed by COA for its Foster Grandparent Program (FGP) and Retired and
Senior Volunteer Program (RSVP) were allowable, allocable, and in compliance with
applicable laws, regulations, and terms and conditions of the grants.

We found that: COA’s method of charging employee salaries to the grants did not comply
with Federal regulations; various policies and procedures were inadequate; FGP and RSVP
program requirements were not met; matching funds were not supported; and accounting
duties in COA’s Finance Department were not separated.

BACKGROUND

The Corporation awards grants and cooperative agreements to assist in the creation of full-
time and part-time national and local community service programs. The Senior Corps
program is one of the Corporation’s three major service initiatives. The purpose of the
Corporation’s Foster Grandparent Program is to provide grants to qualified organizations to
engage persons age 60 and older, with limited incomes, in providing assistance to
disadvantaged or disabled youth. The purpose of the RSVP program is to provide grants to
qualified organizations to engage persons age 55 and older, in providing assistance that
includes tutoring children in reading and math, providing counsel to new business owners,
offering relief services to victims of natural disasters, and helping community organizations
operate more efficiently. Individuals serving in COA’s FGP and RSVP programs work with
abused and neglected children, and perform a number of community oriented activities.

AGREED-UPON PROCEDURES SCOPE

We performed the agreed-upon procedures listed in Appendix A for COA’s FGP and RSVP
grants as follows:

Program              Award No.            Award Period                AUP Review Period
FGP                  04SFSFL008           4/1/2004-3/31/2007          4/1/2005-3/31/2006
RSVP                 04SRSFL007           4/1/2004-3/31/2007          4/1/2005-3/31/2006

We conducted our field work from November 2006 to February 2007.




                                              1
SUMMARY OF RESULTS

1.    Salaries of COA employees charging time to the grants were not in compliance with
      Office of Management and Budget Circulars.

2.    Allocations for personnel, fringe benefits and travel expenses were based on budgeted
      labor hours of each COA department. There were no time and activity reports to
      support the actual labor hours attributed to each grant.

3.    In-kind volunteer meals were mistakenly claimed as Federal share.

4.    COA used an inconsistent allocation methodology for claiming volunteer support
      expenses.

5.    COA’s policies and procedures did not address how operating funds were drawn down
      from the Department of Health and Human Services Payment Management System.

6.    COA’s policies and procedures did not address its current practice for reporting costs
      on Financial Status Reports (FSRs).

7.    COA did not have adequate supporting documentation for funds claimed from its
      General fund that were used as match for the Senior Corps grants.

8.    There was a lack of separation of duties in COA’s Finance Department.

9.    COA did not fulfill its FGP program responsibilities in the following areas:
       a. Documentation of volunteer orientation and in-service training;
       b. Documentation to support annual volunteer evaluations;
       c. Documentation of written assignment/care plans for FGP volunteers during the
          AUP review period;
       d. Documentation regarding the eligibility of the children to be served;
       e. Memoranda of Understanding with volunteer stations did not include all required
          elements.

10.   COA did not fulfill its RSVP program responsibilities in the following areas:
       a. Documentation that RSVP volunteers met the age requirement;
       b. Documentation that RSVP volunteers agreed to serve without compensation;
       c. Documentation provided of written assignment descriptions for each RSVP
          volunteer;
       d. Completion of RSVP enrollment forms.

For each of the issues summarized above and more fully described on the following pages of
this report, we recommend that the Corporation perform on-site monitoring or other
oversight methods to ensure implementation of corrective actions and adherence to grant
provisions and regulations. The COA policies and procedures need to be tested by the
Corporation to verify that controls are effective. The Corporation should recover, from non-




                                              2
Federal funds, the questioned costs identified in this report.

SUMMARY OF QUESTIONED COSTS

              Finding                           Questioned Costs
                                   FGP                  RSVP            Amount
                 1                $61,514              $54,011         $115,525
                 2                $15,075              $11,971         $ 27,046
                 3                $13,202                              $ 13,202
                                                         Total         $155,773


EXIT CONFERENCE

We provided a discussion draft of this report and conducted an exit conference with COA
and Corporation representatives on April 11, 2007. Their responses to the draft report are
included in this report as Appendices B and C, respectively. In addition, we included our
summary of COA’s comments in this report where appropriate.

We performed the procedures described in Appendix A, which were agreed to by the OIG
and the Corporation, solely to assist Corporation management in reviewing specific
categories of claimed costs and volunteer files for the grantee’s FGP and RSVP program.
This agreed-upon procedures review was performed in accordance with generally accepted
government auditing standards.

Program               Award No.              Award Period               AUP Review Period
FGP                   04SFSFL008             4/1/2004-3/31/2007         4/1/2005-3/31/2006
RSVP                  04SRSFL007             4/1/2004-3/31/2007         4/1/2005-3/31/2006


RESULTS OF AGREED-UPON PROCEDURES

COA could not provide detailed general ledger information from its accounting system.
Therefore, we relied on a spreadsheet, prepared by COA, of actual costs incurred for the
RSVP and FGP programs. The grant costs on the spreadsheet agreed with the costs reported
on the Financial Status Reports. We sampled the files of 20 FGP volunteers and 65 RSVP
volunteers using volunteer rosters obtained from COA. Results of procedures performed are
provided below.

In its response to the draft report, COA stated that the OIG was invited to test the system and
request specific details to complete its work, but that the OIG did not follow up. The OIG
auditor did conduct an onsite review of transactions in the accounting system, and requested
general ledger information to support FSRs. OMB Circular A-110 requires that grant
recipients maintain financial management systems that provide for accounting records that
are supported by source documents. Although we made repeated requests for detailed
general ledger information, none was provided. It is the grantee’s responsibility, not that of



                                                 3
the OIG, to support costs claimed. The Standard General Ledger report, provided as an
attachment to COA’s response, includes one month’s detail. A general ledger report
covering the full period of our agreed-upon procedures was not provided. COA has not
provided sufficient general ledger detail to support its claimed costs.

1.      Salaries of COA employees charging time to the grants were not in compliance
        with OMB regulations.

Time and activity reports of COA employees who charged time to the RSVP and FGP grants
did not contain sufficient details, as required by Corporation regulations and OMB Circulars.
The time sheets did not specify or distribute time by grant or cost objective. The time sheets
captured the total hours worked each day but did not contain any details as to how the time
should be charged to specific grants.

According to 2 C.F.R. § 230, Appendix B, Selected Items of Cost 8, Compensation for
Personal Services, states the following:

     m. Support of salaries and wages.

     (1) Charges to awards for salaries and wages, whether treated as direct costs or indirect
     costs, will be based on documented payrolls approved by a responsible official(s) of the
     organization. The distribution of salaries and wages to awards must be supported by
     personnel activity reports, as prescribed in subparagraph 8.m.(2) of this appendix, except
     when a substitute system has been approved in writing by the cognizant agency.

     (2) Reports reflecting the distribution of activity of each employee must be maintained for
     all staff members (professionals and nonprofessionals) whose compensation is charged,
     in whole or in part, directly to awards. In addition, in order to support the allocation of
     indirect costs, such reports must also be maintained for other employees whose work
     involves two or more functions or activities if a distribution of their compensation
     between such functions or activities is needed in the determination of the organization's
     indirect cost rate(s) ( e.g. , an employee engaged part-time in indirect cost activities and
     part-time in a direct function). Reports maintained by non-profit organizations to satisfy
     these requirements must meet the following standards:

     (a) The reports must reflect an after-the-fact determination of the actual activity of each
     employee. Budget estimates ( i.e. estimates determined before the services are performed)
     do not qualify as support for charges to awards.

     (b) Each report must account for the total activity for which employees are compensated
     and which is required in fulfillment of their obligations to the organization.

     (c) The reports must be signed by the individual employee, or by a responsible
     supervisory official having first hand knowledge of the activities performed by the
     employee, that the distribution of activity represents a reasonable estimate of the actual
     work performed by the employee during the periods covered by the reports.




                                                 4
   (d) The reports must be prepared at least monthly and must coincide with one or more
   pay periods.

   (3) Charges for the salaries and wages of nonprofessional employees, in addition to the
   supporting documentation described in subparagraphs (1) and (2), must also be
   supported by records indicating the total number of hours worked each day maintained
   in conformance with Department of Labor regulations implementing the Fair Labor
   Standards Act (FLSA) (29 CFR part 516). For this purpose, the term “nonprofessional
   employee” shall have the same meaning as “nonexempt employee,” under FLSA.

   (4) Salaries and wages of employees used in meeting cost sharing or matching
   requirements on awards must be supported in the same manner as salaries and wages
   claimed for reimbursement from awarding agencies.

COA stated that it was unaware of the time and activity requirement, and that the
timekeeping deficiency had not been pointed out during the Corporation’s monitoring visit or
in the monitoring report.

During the exit conference, COA management personnel stated that they believed the time
sheets for both the FGP and RSVP program directors included each director’s title and name,
and, therefore, should be sufficient evidence of which grant program should be charged.
However, during our review of director time sheets, we did not find the title of any of the
COA employees charging time to the grants.

As a result, COA is not in compliance with OMB regulations and we, therefore, question
personnel expenses of $115,525 as follows:



                                                     Questioned
                       Award No.                 Personnel Expenses
                       04SFSFL008                       $61,514
                       04SRSFL007                        54,011
                       Total                           $115,525



Recommendations

We recommend that the Corporation:

   •   Require COA to complete time and activity reports for all employees in accordance
       with OMB regulations.

   •   Disallow the questioned labor charges of $61,514 to the FGP grant and $54,011 to the
       RSVP grant, and recoup the questioned amounts from non-Federal funds.




                                             5
COA’s Response

COA asserts that time sheets, which include the director’s name in combination with position
descriptions for the FGP and RSVP Program Directors, are sufficient documentation because
the project directors spend 100 percent of their time in each program. COA stated that the
salary for the remaining personnel charging time to the FGP and RSVP grants was attributed
to indirect salaries, wages, and related fringe benefits, all costs of which it believes were
allocated according to the OMB regulations that permit the allocation of indirect costs under
a substitute system approved by COA’s local oversight agency, the Florida Department of
Elder Affairs (DOEA).

Corporation Response

The Corporation’s Florida State Office refutes COA’s repeated assertion that COA was given
approval to apply DOEA’s allocation system for budgeting costs in the 2004 renewals of its
RSVP and FGP grants. The Florida State Office stated that it did not negotiate or approve
COA’s use of the DOEA cost allocation system, and that it will determine the allowability of
costs and respond to the OIG’s findings and recommendations in its management decision
once the final report is published.

OIG Comments

As indicated on Page 4, 2 C.F.R. § 230, Appendix B, Selected Items of Cost 8,
Compensation for Personal Services, states:

       m. Support of salaries and wages.

   (1) Charges to awards for salaries and wages, whether treated as direct costs or indirect
   costs, will be based on documented payrolls approved by a responsible official(s) of the
   organization. The distribution of salaries and wages to awards must be supported by
   personnel activity reports, as prescribed in subparagraph 8.m.(2) of this appendix, except
   when a substitute system has been approved in writing by the cognizant agency.

   (2) Reports reflecting the distribution of activity of each employee must be maintained for
   all staff members (professionals and nonprofessionals) whose compensation is charged,
   in whole or in part, [emphasis added] directly to awards. In addition, in order to support
   the allocation of indirect costs, such reports must also be maintained for other employees
   whose work involves two or more functions or activities if a distribution of their
   compensation between such functions or activities is needed in the determination of the
   organization's indirect cost rate(s).

   (a) The reports must reflect an after-the-fact determination of the actual activity of each
   employee. Budget estimates ( i.e. estimates determined before the services are performed)
   do not qualify as support for charges to awards.

Documentation provided by COA during our fieldwork included employee time sheets that
captured total hours worked each day, but did not contain any details as to how the time



                                              6
should be charged to specific grants or cost objectives. As stated in the regulation, reports
reflecting the distribution of activity of each employee must be maintained for all staff whose
salaries are charged in whole or in part directly to the grant awards. COA did not provide
documentation of written approval from the Corporation that a substitute system for charges
of salaries and wages had been approved. As a result, our finding and recommendations
remain unchanged.

2.       Allocations of salaries, fringe benefit and travel expenses were based on
         budgeted labor hours of each COA department.

COA stated that its indirect expense allocation model was established by the Florida DOEA
and is required to be followed in allocating indirect costs to all program functions it
administers. During the OIG’s review of the model, we found that the basis of allocating
personnel, fringe benefit and travel expenses was determined by the percentage of labor
hours for each COA department. We determined that, without time and activity reports,
COA is unable to accurately calculate the percentage of labor hours of each employee to be
used in the allocation. In addition, payroll register data provided to the OIG did not support
the labor allocation that the grantee stated it was using.

According to 2 C.F.R. § 230 Appendix A, Section D, Allocation of Indirect Costs and
Determination of Indirect Cost Rates, Direct Allocation Method, the direct allocation of some
indirect costs is acceptable, provided each joint cost is prorated using a base which accurately
measures the benefits provided to each award or other activity. The bases must be
established in accordance with reasonable criteria and be supported by current data.
However, COA is not using a base for allocating personnel, fringe benefit and travel
expenses that meets the OMB requirements. The personnel expenses are questioned in
Finding #1. We question fringe benefit expenses of $12,192 for the FGP grant, and $10,956
for the RSVP grant. We also question travel-related expenses of $2,883 for the FGP grant
and $1,015 for the RSVP grant.



                                      Questioned Fringe       Questioned Travel
             Award No.                Benefit Expenses            Expenses
             04SFSFL008                      $12,192                 $2,883
             04SRSFL007                       10,956                  1,015
             Total                           $23,148                 $3,898



Recommendations

We recommend that the Corporation:

     •   Require COA to determine a basis for allocating costs to the RSVP and FGP grants.
         Once determined, the allocation basis must be verifiable and consistently applied.




                                               7
     •   Disallow the questioned fringe benefit expenses of $23,148 and travel expenses of
         $3,898, and recoup the questioned amounts from non-Federal funds.

COA’s Response

COA did not concur with the finding or recommendations. It stated that the salaries, fringe
benefits and travel expenses for direct employees were charged at actual amounts, not
budgeted amounts. The remaining salaries, fringe benefits and travel expenses were for
employees in support roles that are necessary to the overall operation of the organization,
although a direct relationship to any particular cost objective cannot be shown. It stated that
there was no way to determine the benefits by accounting for time, so other means were used.
COA utilizes the MIP accounting system to support its accounting function. The software
has the indirect cost allocation rate programmed into the system to allow for automatic
calculation and expense distribution to every program function cost center.

Corporation Response

The Corporation’s Florida State Office stated that it did not negotiate or approve COA’s use
of the DOEA cost allocation system, and that it will determine the allowability of costs and
respond to our findings and recommendations in its management decision once the final
report is published.

OIG Comments

As stated in the finding, during the OIG’s review of the allocation model, we found that the
basis of allocating personnel, fringe benefit and travel expenses was supposedly determined
by the percentage of labor hours for each COA department. However, the percentage of
labor hours for each department is not supported by corresponding time sheets. No
documentation was provided during our fieldwork for the method of allocating staff payroll
costs that COA discussed in its response. We were told that the actual costs of staff payroll
were allocated at 45 percent because Foster Grandparents represent 45 percent of the total
number of individuals paid through the payroll system.

We continue to recommend that the Corporation: (a) require COA to establish a verifiable
and consistently applied basis for allocating costs to the RSVP and FGP grants, and (b)
disallow and recoup the questioned costs from non-Federal sources.

3.       In-kind volunteer meals were mistakenly claimed as Federal share.

COA claimed $13,202 of volunteer meals as Federal share for the FGP program. However,
the meals were received as in-kind donations. COA’s financial director stated that this was
an error. He inadvertently misclassified the cost of meals to the Federal share of expenses.
During the exit conference, COA stated that an accounting spreadsheet that was provided to
the OIG was prepared outside of the accounting system, and that the data was a manually
prepared summary of costs, not an official report. However, this report was submitted by
COA to the Corporation’s Southeast Service Center in response to its request for a copy of
COA’s general ledger. Because a detailed general ledger was never produced, the OIG relied



                                               8
on the spreadsheet of actual costs because it reconciled to the costs claimed by COA on its
FSRs. During our review, COA changed the classification of the meals but did not update
the FSR to reflect the change. Therefore, the meal expenses of $13,202 charged as Federal
share are questioned.



                              Award No.         Questioned Costs
                             04SFSFL008           $13,202

Recommendations

We recommend that the Corporation:

       •   Disallow the questioned costs of $13,202 and recoup the questioned amounts
           from non-Federal funds, or

       •   Require that COA submit an amended FSR to reflect any changes to classification
           of costs incurred for the FGP grant.

COA’s Response

COA noted that the accounting report in question was a spreadsheet report prepared outside
of its MIP accounting system, as it had stated during the exit conference. It stated that data
formatted and supplied directly to the OIG was a manually prepared summary of costs, and
was not an official report. It stated further that the spreadsheet was prepared for the OIG and
was not submitted to the Corporation for normal reporting purposes. When it was discovered
that an error had been made on the initial spreadsheet provided to the OIG, a corrected
spreadsheet was prepared and resubmitted. As for updating official reports to the
Corporation, the Federal share of meals claimed did not change as a result of the
reclassification so no adjustment was necessary. COA requested that the questioned costs
pertaining to meal expenses be rescinded entirely since nothing was charged to the Federal
portion.

OIG Comments

We note again that the spreadsheet in question was provided to Corporation staff, not to the
OIG, in response to a request by the Corporation’s Southeast Service Center to review
COA’s general ledger. Even though it was not an official report, the documentation was
provided to show support for costs charged to the grant. COA has stated that the information
was provided outside of its accounting system, but on Page 4 of its response (see Appendix
B), it highlights that the accounting system produces reports in several different formats,
including Excel spreadsheets, and that the spreadsheets provided to the OIG were direct
outputs of the system. This appears to contradict the statement that the spreadsheets were
manually prepared. We acknowledged in the draft report that an updated spreadsheet was
prepared during our review, and continue to recommend that the Corporation review any




                                               9
changes in costs attributed to meals to determine their effect on the costs claimed on the FSR
for the review period of April 30, 2005 to March 31, 2006.

4.     COA used an inconsistent allocation methodology for claiming volunteer
       support expenses.

We judgmentally selected the following volunteer support expense categories for testing the
RSVP and FGP programs: Office Supplies; Janitorial Services; Equipment Lease; Computer
Support; Maintenance; Rent; Audit; and Utilities. In an e-mail to the OIG dated February 1,
2007, the COA’s finance director stated that allocation methods would change in any month
where there was significant change in its operations. Also, he noted that there were as many
as six revisions to the indirect expense allocation model that was used in determining cost
allocations. In a follow-up e-mail dated February 7, 2007, the finance director provided the
following explanations for the method of allocating costs for the selected volunteer expense
categories:

 1)      Any cost where the use is known at the time of input is charged directly.
 2)      General Office Supplies are first allocated to all staff and then a portion equal to the
         percentage of labor for selected indirect staff is then charged to FGP and RSVP.
 3)      General Maintenance is charged to the office manager and then charged to each
         department based on square footage.
 4)      Computer Support is first allocated to all staff and then a portion equal to the
         percentage of labor for selected indirect staff is charged to FGP and RSVP.
 5)      Equipment Lease is charged by the number of units.
 6)      Audit is charged based on an estimate of the involvement.
 7)      Janitorial Services, Rent & Utilities are allocated based on square footage occupied
         and share of common areas.

This method for allocating costs was not documented, nor was COA able to demonstrate how
the method was applied in determining the selected volunteer support cost categories
claimed. Also, after a review of the cost allocation model, we determined that the model
referred to the budgeted allocation of volunteer support costs and did not support the actual
costs incurred or charged to the FGP/RSVP grants. In his explanation of COA’s method of
allocating costs, the finance director stated that, for many of the volunteer categories, cost
was determined based on the percentage of labor hours. The OIG concluded that, without
time and activity reports as discussed earlier, COA is unable to accurately determine the
percentage of labor hours to be applied as a basis for determining allocation of any of the
costs incurred.

According to 2 C.F.R. § 230 Appendix A, Section D, Allocation of Indirect Costs and
Determination of Indirect Cost Rates, Direct Allocation Method, the direct allocation method
is acceptable, provided each joint cost is prorated using a base which accurately measures the
benefits provided to each award or other activity. The bases must be established in
accordance with reasonable criteria, and be supported by current data.




                                                10
Initially, the sampled volunteer support cost categories were charged to the match share of
cost. During our review, COA provided an updated spreadsheet of actual costs for the FGP
program to match the funds that were drawn down. In this update, COA changed the cost of
volunteer support expenses to Federal share. During the review period, COA did not submit
an updated FSR to reflect these changes.

We concluded that COA does not have a documented or consistently applied method of
allocating volunteer support costs. The grantee’s method does not comply with OMB
Circulars.

Recommendations

We recommend that the Corporation:

       •       Require COA to improve and document its allocation methodology for
               charging volunteer support costs to the FGP and RSVP grants. Once
               determined, the allocation bases must be verifiable and consistently applied.

       •       Require that COA submit an amended FSR to reflect any changes to
               classification of costs incurred for the FGP grant.

       •       Review the allowability of the volunteer support costs as Federal share after
               COA submits a revised FSR.

COA’s Response

COA stated that its current allocation method is consistent, and that its indirect methodology
is changed on a quarterly basis during any reporting period. It further stated that the
quarterly change is necessary because of additions and deletions of program functions that
cause indirect cost allocation ratios to change.

Corporation Response

The Corporation’s Florida State Office stated that it did not negotiate or approve COA’s use
of the DOEA cost allocation system. The Corporation stated that it will determine the
allowability of costs and respond to our findings and recommendations in its management
decision once the final report is published.

OIG Comments

We continue to recommend that the Corporation require COA to improve and document its
indirect allocation methodology to ensure that the method is consistently applied. As stated
in this report, COA’s Finance Director admitted that the methodology was not documented,
and that there had been as many as six changes to the allocation methodology during our
review period of April 1, 2005 to March 31, 2006. Our recommendation is based on 2 C.F.R.
§ 230 Appendix A, Section D, Allocation of Indirect Costs and Determination of Indirect
Cost Rates, Direct Allocation Method, which states the direct allocation method is



                                              11
acceptable, provided each joint cost is prorated using a base which accurately measures the
benefits provided to each award or other activity. The bases must be established in
accordance with reasonable criteria, and be supported by current data.

We continue to note that there was no documentation to show that the indirect cost allocation
method used by COA was approved by the Corporation, or that it was being consistently
applied. COA did not address the recommendation concerning the change in classification of
volunteer support costs; therefore, our recommendation that the Corporation require COA to
submit an amended FSR to reflect any changes to cost classifications remains unchanged. In
addition, we continue to recommend that the Corporation review the allowability of the
volunteer support costs as Federal share after COA submits a revised FSR.


5.       COA’s policies and procedures did not address how funds would be drawn down
         from the Department of Health and Human Services’ Payment Management
         System (PMS).

COA’s finance director stated that drawdowns for the FGP and RSVP grants were conducted
bi-weekly to coincide with COA’s payroll. This procedure was not documented in COA’s
financial policies manual. The manual was last updated on March 25, 2005.

According to 2 C.F.R. § 215.21(b)(5), a recipient’s financial management systems shall
provide written procedures to minimize the time elapsing between the transfer of funds to the
recipient from the U.S. Treasury and the issuance or redemption of checks, warrants or
payments by other means for program purposes by the recipient.

Without documented policies and procedures in place, COA drawdowns may be improperly
performed and may exceed its immediate cash needs.

Recommendations

We recommend that the Corporation:

     •   Direct COA to update its financial policies manual to document its drawdown
         process; and

     •   Verify that the policies are implemented.

COA’s Response

COA acknowledged that its written procedures for conducting drawdowns were out of date
and stated that the procedures have been revised to reflect its current drawdown process.

OIG Comments

Although COA concurred with the recommendation, the recommendation remains
unchanged until the Corporation can verify that the financial policies manual has been



                                                12
updated and the procedures are being implemented in accordance with the aforementioned
laws and regulations.


6.       COA’s policies and procedures do not address its current practice for
         determining what costs are reported on the Financial Status Reports using the e-
         Grants system.

COA’s FGP-RSVP Action Report Procedural Manual was last issued in March 2001. It
references the COA’s prior accounting system. COA is currently using the SAGE MIP
accounting system. The manual does not provide guidance on how costs claimed on the
Financial Status Reports will be reported using the Corporation’s e-Grants system. Without
current policies and procedures in place, COA may inaccurately report costs, preventing the
Corporation from effectively monitoring the grant funds.

According to 2 C.F.R. § 215.21(b)(6), a grant recipient’s financial management systems shall
provide written procedures for determining the reasonableness, allocability and allowability
of costs in accordance with the provisions of the applicable Federal cost principles and the
terms and conditions of the award.

Recommendations

We recommend that the Corporation:

     •   Direct COA to update its financial policies and procedures to describe how its
         Financial Status Reports are developed, and

     •   Verify that the policies are implemented.

COA’s Response

COA acknowledged that its written procedures for determining what costs are reported on its
Financial Status Reports using the e-Grants system were out of date. It stated that it has
revised the procedures to reflect its current method in the operating and procedural manual.

OIG Comments

Although COA concurred with the recommendation, the recommendation remains
unchanged until the Corporation can verify that the operating and procedural manual has
been updated and the procedures are being implemented in accordance with the
aforementioned laws and regulations.


7.       COA did not have adequate supporting documentation for funds claimed from
         its General fund that were used as match for the Senior Corps grants.




                                                13
During our review, COA provided documentation that it received cash contributions from
United Way Volusia-Flagler Counties for the RSVP program and from Volusia County for
the FGP program. However, during the exit conference, the finance director stated that those
funds did not have to be used as match for the RSVP and FGP grants. In addition, the
finance director stated that an additional source of match funds for the RSVP and FGP grants
is the COA’s general fund. During our fieldwork, COA provided a trial balance of COA’s
general revenue fund as support for match funds for the RSVP and FGP grants. COA was
unable to demonstrate the amount of funds taken from its general fund that were used for the
RSVP and FGP grants.

According to 2 C.F.R. § 215.23, cost sharing or matching all contributions, including cash
and third party in-kind, shall be accepted as part of the recipient's cost sharing or matching
when such contributions meet all of the following criteria:

                     Are verifiable from the recipient's records.
                     Are not included as contributions for any other Federally assisted
                      project or program.
                     Are necessary and reasonable for proper and efficient accomplishment
                      of project or program objectives.
                     Are allowable under the applicable cost principles.
                     Are not paid by the Federal Government under another award, except
                      where authorized by Federal statute to be used for cost sharing or
                      matching.
                     Are provided for in the approved budget when required by the Federal
                      awarding agency.

We could not verify that these conditions were met for the general funds claimed as match.
COA has not established and maintained fiscal records to properly account for cost matching
for funds taken from its general fund account. The amount of funds taken from the general
fund could not be verified. Without adequate documentation, it is unknown whether claimed
match was reported correctly. The match claimed is not questioned because the grant is
ongoing.

Recommendations

We recommend that the Corporation:

   •   Require that COA properly account for match funds that are used from its general
       fund as it relates to the FGP and RSVP grants.

   •   Review all match claimed to these grants prior to closeout to ensure it is supported
       and allowable.




                                              14
COA’s Response

COA stated that the only way to verify match is to verify disbursements, not revenue. It
stated that it uses a pooling of cash method to receive and disburse cash funds. The pooled
cash fund disburses funds and charges each respective program function with the expenditure
charge. It also stated that previous year independent auditor’s financial audit reports show
that COA’s local funding was far in excess of the required matching funds per grant
agreement for all Federal and State grants, including FGP and RSVP.

OIG Comments

Although COA states that its match exceeds the required amount, we could not verify that
assertion because of a lack of general ledger detail, as discussed earlier.         Our
recommendation remains unchanged.


8.     There was a lack of separation of duties in the finance department.

We noted that the fiscal supervisor is responsible for drawing down funds, depositing funds,
processing general ledger entries and reconciling bank statements. During the exit
conference, COA stated that, due to budget constraints, it was unable to hire additional
accounting personnel to achieve an optimum separation of duties.

COA’s financial policy manual states that financial duties and responsibilities will be
segregated so that no single employee has sole control over cash receipts, disbursements, and
account reconciliations. Therefore, we conclude that COA is not enforcing its internal
financial policies. Also, the absence of separation of duties may result in financial
transactions that are not executed consistent with COA management’s intent, possibly
leading to unauthorized transactions.

Recommendations

We recommend that the Corporation:

       •   Review the budget constraints that COA is experiencing to determine whether
           they affect its ability to hire additional accounting personnel.

       •   Ensure that COA complies with its own internal financial policies and procedures.

COA’s Response

COA stated that it enforces its financial policies. It stated that, because the drawdowns are
conducted electronically, the Fiscal Supervisor does not have control over the drawdown.
COA also stated that this issue is addressed annually with its independent auditors.




                                              15
OIG Comments

Despite addressing the separation of duties issue with its outside auditors, COA’s response
did not describe what actions were taken, if any, to remedy the situation. We continue to
recommend that the Corporation review the budget constraints that COA is experiencing to
determine its ability to hire additional accounting personnel, and verify its enforcement of its
internal financial policies and procedures.

9.     COA did not fulfill its FGP program responsibilities in the following areas:

           a. Documentation of volunteer orientation and in-service training.
           b. Documentation to support annual volunteer evaluations.
           c. Documentation of written assignment/care plans for FGP volunteers
              during the review period.
           d. Documentation regarding the eligibility of the children to be served.
           e. Memoranda of Understanding with volunteer stations did not include all
              required elements.

COA did not provide documentation that volunteer orientations were conducted. It also was
unable to provide adequate documentation that in-service training was held prior to
December 2005. The Executive Director stated that documentation could not be found
because of a change in FGP directors during our review period. The new FGP director was
hired in December 2005 and has been working to bring the FGP program into compliance
with Corporation regulations. According to 45 C.F.R. § 2552.23(f), What are a sponsor's
program responsibilities, the Foster Grandparents must be provided with not less than 40
hours of orientation, of which 20 hours must be pre-service, and an average of 4 hours of
monthly in-service training.

In reviewing a sample of 20 volunteer files, we found that there was no supporting
documentation that three volunteers had received an annual appraisal. According to 45
C.F.R. §2552.23(h), What are a sponsor's program responsibilities, a sponsor should
conduct an annual appraisal of volunteers’ performance.

There were no written assignment/care plans developed by the volunteer stations for each
child served during the review period. The current FGP director has been working with each
volunteer station to develop care plans. We reviewed the current assignment/care plans and
noted several instances of non-compliance in which volunteers were serving a group of
children instead of providing one-on-one interaction. Some volunteers were performing
office duties. In addition, we observed that there were care plans that did not identify the
child being served and/or the needs of the student and the tasks that would be performed by
the FGP volunteer. According to 45 CFR § 2552.72, Is a written volunteer assignment plan
required for each volunteer?, all Foster Grandparents shall receive a written volunteer
assignment plan developed by the volunteer station that:

       (1) Is approved by the sponsor and accepted by the Foster Grandparent;

       (2) Identifies the individual child(ren) to be served;



                                                16
       (3) Identifies the role and activities of the Foster Grandparent and expected outcomes
           for the child;

       (4) Addresses the period of time each child should receive such services; and

       (5) Is used to review the status of the Foster Grandparent's services in working with
           the assigned child, as well as the impact of the assignment on the child's
           development.

COA did not ensure that program volunteers only served eligible children. It relied on the
volunteer station to determine beneficiary eligibility. In addition, the volunteer stations were
not required to provide any documentation or certifications to show that the volunteers were
assigned to serve eligible children. The FGP director stated that there are persons over the
age of 21 being served at one of the volunteer stations.

According to 45 C.F.R. § 2552.81, What type of children are eligible to be served? Foster
Grandparents must serve only children and youth with special or exceptional needs who are
less than 21 years of age. According to 45 C.F.R. § 2552.82, Under what circumstances may
a Foster Grandparent continue to serve an individual beyond his or her 21st birthday?, only
when a Foster Grandparent has been assigned to, and has developed a relationship with, a
mentally retarded child, that assignment may continue beyond the individual's 21st birthday,
provided that:

       (1) Such individual was receiving such services prior to attaining the chronological
           age of 21, and the continuation of service is in the best interest of the individual;
           and

       (2) The sponsor determines that it is in the best interest of both the Foster
           Grandparent and the individual for the assignment to continue. Such a
           determination will be made through mutual agreement by all parties involved in
           the provision of services to the individual served.

COA did not ensure that memoranda of understanding with volunteer stations indicated that
the stations would not discriminate against FGP volunteers or in the operations of the
program. According to 45 C.F.R. § 2552.23 (c), grantees should develop and manage a
system of volunteer stations by ensuring that the placement of Foster Grandparents will be
governed by a Memorandum of Understanding that states the station assures it will not
discriminate against Foster Grandparents or in the operation of its program.

By not adequately fulfilling FGP program responsibilities, COA may have volunteers that are
not serving children with special or exceptional needs in the manner required by program
provisions. In addition, the volunteer stations may not be fully aware of the program
requirements.




                                               17
Recommendations

We recommend that the Corporation:

      •   Require COA to develop and implement policies and procedures to ensure FGP
          volunteer orientations, in-service training, and performance evaluations are properly
          conducted, documented and reviewed in accordance with the program requirements.

      •   Require COA to develop written volunteer assignment plans for all FGP volunteers
          that adhere to program requirements.

      •   Require COA to verify the eligibility of children served by FGP volunteers.

      •   Require COA to include all required elements in Memoranda of Understanding with
          volunteer stations.

COA’s Response

COA stated that the issues listed above were never reported or brought to its attention in
previous Corporation monitoring reports. COA made the assumption that the former FGP
director discarded documentation. Care plans have now been requested from all sites. Sixty-
seven of the 79 Grandparents’ care plans have been received. COA is in the process of
getting written mutual agreements that care should continue for mentally challenged
individuals over the age of 21. An amendment to the Foster Grandparent Memorandum of
Understanding has been sent to all sites for signature.

Corporation Response

The Corporation stated that COA has provided satisfactory documentation that demonstrates
it is implementing corrective actions to fulfill its FGP programmatic responsibilities.

OIG Comments

The corrective actions, as described in COA’s response, are responsive to the
recommendation that it develop written volunteer assignment plans; verify eligibility of
children being served in the program; and include all required elements of the MOU.
However, we continue to recommend that the Corporation require COA to develop and
implement formal policies and procedures to ensure that FGP volunteer orientation, in-
service training, and performance evaluations are properly conducted and reviewed in
accordance with the program requirements.

10.       COA did not fulfill its RSVP program responsibilities in the following areas:

             a. No documentation that RSVP volunteers met the age requirement.




                                                18
           b. No documentation that RSVP volunteers agreed to serve without
              compensation.
           c. No documentation provided of written assignment descriptions for each
              RSVP volunteer.
           d. Incomplete RSVP enrollment forms.

In reviewing a sample of 65 volunteer files, we could not determine if eight of the volunteers
were eligible because their age could not be verified. The RSVP Director could not find files
for six volunteers in the sample. While she was able to provide evidence that those six
individuals were RSVP volunteers, the reports did not include the age of the volunteers.
Also, two of the volunteers whose files were made available did not include their date of
birth on the enrollment forms; therefore, their age could not be verified. According to 45
C.F.R. § 2553.41, Who is eligible to be a RSVP volunteer?, individuals enrolled in the
program must be 55 years or older.

None of the 65 sampled volunteer files included documentation that volunteers agreed to
serve in the RSVP program without compensation. According to 45 C.F.R. § 2553.41 (a),
Who is eligible to be an RSVP volunteer?, an individual enrolled in the program must agree
to serve without compensation.

During our review of volunteer files, COA did not provide a copy of the written assignment
descriptions for each volunteer or a notation that the volunteer’s assignment description was
maintained at the volunteer station. During the exit conference, COA stated that, in the past,
it had maintained a binder with all the volunteer stations’ assignment descriptions; however,
that binder was not made available during our review.

Also, after reviewing the volunteer files, we determined that COA maintained incomplete
enrollment forms for volunteers. The RSVP Director acknowledged that there were
incomplete enrollment forms, and stated that COA has implemented a plan to address this
issue. During the exit conference, COA stated that this plan will include a thorough internal
file audit to identify all incomplete enrollment and other necessary forms.

According to the Corporation’s RSVP Operations Handbook, dated April 2000, Chapter 11,
Sec. 46, the sponsor will develop a recordkeeping system to permit the orderly collection,
storage, and retrieval of information at volunteer stations, the project’s volunteers, and fiscal
aspects of project operation. The handbook also states that the project shall maintain a file
folder for each volunteer containing a signed enrollment form, including name, address, and
telephone number, and a copy of the written assignment description for each volunteer, or a
notation that the volunteer’s assignment description is maintained at the volunteer station.

Without complete volunteer files, COA may not be aware that ineligible volunteers may be
enrolled in the RSVP program, causing it to incur unallowable costs. Also, without adequate
RSVP policies and procedures in place, volunteers may not be fully aware of their program
responsibilities.




                                                19
Recommendations

We recommend that the Corporation:

    •   Require COA to develop and implement formal policies and procedures to ensure
        that RSVP volunteers are aware of eligibility requirements.

    •   Require COA to properly document and retain required documentation in volunteer
        files.

COA’s Response

COA stated that in previous Corporation monitoring reports, there was never any indication
that the volunteer files for the RSVP were in need of change. COA has begun an internal file
audit to identify all incomplete enrollment and other necessary forms, and to insure file
integrity by meeting with station managers and volunteers to complete all required
documentation.

Corporation Response

The Corporation stated that COA has provided satisfactory documentation that demonstrates
it is implementing corrective actions to fulfill its RSVP programmatic responsibilities.

OIG Comments

The corrective actions, as described in COA’s response, are responsive to the
recommendation that COA properly document and retain required documentation in
volunteer files. However, we continue to recommend that the Corporation require COA to
develop and implement formal policies and procedures to ensure that RSVP volunteers are
aware of eligibility requirements.

Overall Recommendation

Based on the numerous financial and programmatic issues discussed in this report, we
recommend that the Corporation suspend grant funds to COA (45 C.F.R. § 2543.62,
Enforcement), until its accounting system meets Federal grant requirements, and until COA
meets all FGP and RSVP programmatic requirements.

We were not engaged to, and did not perform an examination, the objective of which would
be expression of an opinion on the subject matter. Accordingly, we do not express such an
opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the use of the management of the Corporation and COA,
and should not be used by those who have not agreed to the procedures or have not taken
responsibility for the sufficiency of the procedures for their purposes. However, this report is
a matter of public record and its distribution is not limited.



                                               20
      APPENDIX A

AGREED-UPON PROCEDURES
                                    APPENDIX A
                              AGREED-UPON PROCEDURES


We relied on an accounting spreadsheet of actual costs incurred for the RSVP and FGP
programs that was submitted to the Corporation by the Council on Aging of Volusia County.

We sampled the files of 20 FGP volunteers and 65 RSVP volunteers using volunteer rosters
obtained from COA.

We performed the following procedures:

       •      Verified that the following claimed costs were allowable, allocable and in
              compliance with applicable laws and regulations and terms and conditions of
              the grants during the review period:

                       RSVP Grant                       FGP Grant
           Personnel Expenses                  Personnel Expenses
           Fringe Benefit Expenses             Fringe Benefit Expenses
           Staff Travel                        Staff Travel
           Supplies                            Supplies
           Contractual and Consultant          Contractual and Consultant
           Services                            Services
           Maintenance                         Maintenance
           Rent/Utilities                      Rent/Utilities
           Volunteer Meals                     Volunteer Meals
           Volunteer Insurance                 Volunteer Insurance
           Recognition                         Recognition
                                               Volunteer Travel


       •      Verified that Financial Status Reports were supported by COA’s financial
              records.

       •      Verified that volunteer files included proper documentation of program
              eligibility and compliance.
                  APPENDIX B

COUNCIL ON AGING OF VOLUSIA COUNTY’S RESPONSE TO
        AGREED-UPON PROCEDURES REPORT
                                                                                                                                     -
                                                                                                               P.O. Box 671 160 N. Beach Street
                                                                                                                  Daytona Beach, FL 32115-0671
                                                                                                                                     -
                                                                                                             (386) 253-4700 Fax (386) 253-6300




       July 30,2007


       Mr. Ronald F. Huritz, Audit Manager
       Corporation for National and Community Services
       1201 New York Ave, NW Suite 830
       Washington. D.C. 20525


       Dear Mr. Huritz:

       The Council on Aging of Volusia County, Inc. appreciates the opportunity to respond to the draft
       report of the Office of the Inspector General's (OIG) Agreed-Upon Procedures for the Corporation
       for National and Community Service Grants Awarded to our agency.

       As a nonprofit organization we have and continue to sponsor several state and federal grants, which
       provide services for the aging population in Volusia County, Florida. We are proud to have been
       able to sponsor the Retired and Senior Volunteer Program (RSVP) and the Foster Grandparent
       Program (FGP) for over thirty years.

       We have attached a response to the OIG draft report addressing the issues in question. Our agency
       will look forward to working cooperatively with the Corporation to address every issue noted in the
       report, as well as to successfully resolve all matters related to the findings in the report.

        Sincerely,




       Gail F. Camputaro, Executive Director

       CC:        Congressman Mica
                  Congressman Nelson
                  Carol Bates, Assistant Inspector General for Audit, CNCS
                  Suzanne Richards, State Director, Corporation for National and Community Service
                  Peg Rosenbeny, Director of Grants Management, CNCS HQ
                  Richard Lemmon, President, Council on Aging of Volusia County, Inc.




Private not-for-profit partially funded by the State of Florida Department of Elder Affairs with the funds provided by the Community Care for the Elderly and the Older
Americans Act being administered by EiderSource, the State of Florida Department of Children & Families, and some additiond support from the United Way of
Volusia-Flagler Counties and the National Senior Services Corps.
             Agreed-Upon Procedures Review of Senior Grants Awarded to
                Council on Aging of Volusia County 04/01105-03131106
               Council On Aging of Volusia County, Inc.
         Comments Responding To OIG Draft Report - June 5,2007

                                Results horn Review
RESPONSE PREAMBLE:

We address each of the potential findings below. As discussed herein, with few
exceptions, Council has complied at all times with applicable administrative rules and
guidelines, the chief of which has been the Monitoring Reports, Specific Instructions of
the Florida State CNCS office as well as OMB Circular A-122.

       Monitoring by the Florida State CNCS Office: - Attachment I

       The most recent Monitoring Report dated March 15, 2004 clearly indicates that
       the Council has not only complied with, but also earned high marks in the
       administration and operation of CNCS programs. Formal monitoring is
       conducted every three years after each grant cycle is complete and the attached
       report is typical of every report received during the 30 plus year history of the
       Council running CNCS programs. Given these monitoring reports the Council
       was encouraged to continue all practices in place without change except as
       directed by CNCS.

       As the attached CNCS report observed: "Everyone was extremely helpfil and
       cooperative" - "dedicated and competent staff' - "an excellent project" - "the
       community is very supportive of the contribution the project is making" - "well
       administered and in compliance with Federal, legal and regulatory
       requirements" - "Project is in compliance with all jscal requirements and
       policies" - "Outstanding, well-organizedjling system" - "very impressed with
       the services provided the children" - "volunteers are very comfortable in their
       assignments" - "I really enjoyed visiting your project".

       There is nothing in this report suggesting any change.

       Specific instructions by the State CNCS Office:

       When the Grants for the April 2004 - March 2007 period were being negotiated,
       the State CNCS Office requested a change to the method of allocating indirect
       costs. The State Office would no longer accept indirect costs being charged to the
       "Indirect Cost" line because the Council did not have an "Indirect Cost Rate"
       approved by HHS. Historically, the Council charged the indirect cost line in
       accordance the allocation method required by its largest grantor, the Florida
       Department of Elder Affairs (DOEA). Their grantees must use DOEA's approved
       system of allocating costs commonly referred to as the KPMG (letter attached).
       DOEA contends that the KPMG complies with A-122 and refers to Notice of
       Instruction 032803-1-I-AS. After negotiation, the State Office agreed to a method
       where indirect costs would be allocated to direct costs lines using an allocation
       system which is an integral part of the Council's accounting system. Once the
                                       Response
                                           1
      Agreed-Upon Procedures Review of Senior Grants Awarded to
         Council on Aging of Volusia County 04/01/05-03131/06
        Council On Aging of Volusia County, Inc.
  Comments Responding To OIG Draft Report - June 5,2007

eGrant applications were adjusted for the above, the grants were awarded. The
same practice has been repeated for four years as documented in eGrants and all
grants including the current one have been awarded. If this method is no longer
acceptable we are looking forward to working with CNCS to devise an acceptable
solution.

Reliance on OMB Circular A-122:

OMB Circular A-122 is a comprehensive document addressing many conditions
to satisfy the needs of many different organizations. Choosing portions applicable
to each situation is critical to determining if the result is in compliance. Because
the Council was directed to charge indirect amounts to direct lines we wish to
quote and highlight relevant portions of ATTACHMENT A including those
dealing with indirect costs before addressing the OIG's conclusions and
recommendations. As explained more fully below, the Council allocated costs
with these quoted portions of OMB 122-A.

OMB Circular A-122

1. Purpose. However, such cost sharing or matching shall not be accomplished
through arbitrary limitations on individual cost elements by Federal agencies.

3. Applicability. These principles shall be used by all Federal agencies.

ATTACHMENT A

A. 2 Factors affecting allowability of costs.
A. 2. a. Be reasonable for the performance of the award

A. 3. Reasonable costs. A cost is reasonable if; in its nature or amount, it does
not exceed that which would be incurred by a prudent person under the
circumstancesprevailing at the time the decision was made to incur the costs.
A. 3. a. the cost is of a type generally recognized as ordinary and necessary -for
the performance of the award.

A. 4. Allocable costs.
A. 4. a. A cost is allocable to a particular cost objective, such as a grant,
contract, project, service, or other activity, in accordance with the relative
benefits received. A cost is allocable to a Federal award if it is treated
consistently with other costs incurred for the same purpose in like circumstances
and if it:
        2. can be distributed in reasonable proportion to the benejts received, or
        3. Is necessary to the overall operation of the organization, although a
        direct relationship to any particular cost objective cannot be shown.

                                 Response
                                    2
     Agreed-Upon Procedures Review of Senior Grants Awarded to
        Council on Aging of Volusia County 04/01/05-03/31/06
        Council On Aging of Volusia County, Inc.
  Comments Responding To OIG Draft Report - June 5,2007

A. 6. Advance understandings. The absence of an advance agreement on any
cost element will not, in itseg affect the reasonableness or allocability of that
element.

C . Indirect Costs

       1. Indirect costs are those that have been incurredfor common or joint
       objectives and cannot be readily identified

       2. Because ofthe diverse characteristics and accounting practices of non-
       profit organizations, it is not possible to specify the types of costs which
       may be classij?ed as indirect in all situations. However, typical examples
       of indirect costs for many non-profit organizations may include
       depreciation or use allowances on buildings and equipment, the cost of
       operating and maintaining facilities, and general administration and
       general expenses, such as fhe salaries and expenses of executive
       personnel administration, and accounting.




                                Response
                                   3
           Agreed-Upon Procedures Review of Senior Grants Awarded to
              Council on Aging of Volusia County 04101/05-03131/06
               Council On Aging of Volusia County, Inc.
         Comments Responding To OIG Draft Report - June 5,2007
RESPONSE TO OIG'S RESULTS OF AGREED-UPON PROCEDURES:

    General Response: The Council can provide great detail from its accounting
    system. If printed the general ledger would be many thousands of pages and very
    difficult to manually trace entries. OIG was invited to test the system and request
    specific detail to complete their work, but the OIG did not follow up. The
    accounting system produces reports in several different formats including comma
    delimited, excel spreadsheets and PDF files. The spreadsheets provided to the
    OIG were direct outputs of the system. See partial General Ledgers Attachments
    I1 and 111.

    1.      Salaries of COA employees charging time to the grants were not in
            compliance with OMB regulations.

    Response: The significant portion of the questioned costs represent "direct"
    program costs for personnel employed exclusively within the FGP grant program,
    all costs of which are supported with appropriate documentation required pursuant
    to the provisions of OMB Circular A-122, Attachment B, Section 8.m.(l). All
    other indirect charges allocated to the FGP grant program have been determined
    and allocated in strict compliance with the mandatory requirements of the Florida
    Department of Elder Affairs (DOEA) Unit Cost Template.

    We concur with the OIG auditor's "interpretation" of OMB Circular A-122,
    Attachment B, Section 8. m. (1) and (2) as it relates to documented personnel
    activity reports for personnel whose work involves two or more functions or
    activities, but onlv i f all parts o f the criteria stated are recopnized and understood
    in these circumstances. The time sheets of the Foster Grandparent (FGP) director
    and the Retired Senior Volunteer Program Director (RSVP) were supported by
    the required documentation in accordance with the OMB Circular A-122. The
    time sheet reports for each project director were completed indicating the
    director's name and in combination with their position descriptions, all of which
    provides sufficient evidence of which grant program should be charged for these
    direct personnel costs. The project directors spent 100% of their time in each of
    their respective programs. All related salary and fringe benefits for these
    individuals were recognized exclusively as direct program costs in complete
    accordance with the detail provided with the approved contract agreements, and
    all related program budgets. These direct costs represent approximately 60% of
    the FGP costs and 71% of the RSVP costs questioned by the OIG auditor.

    The remaining 40% and 29% of the FGP and RSVP programs, respectively,
    included in the OIG auditor's questioned costs is attributed to indirect salaries,
    wage, and related fringe benefit costs of FGP and RSVP program personnel, all
    costs of which we believe were allocated in accordance with conditions of OMB
    Circular A-122, Section 8.m.(l). This section specifically permits the allocation of

                                       Response
                                          4
      Agreed-Upon Procedures Review of Senior Grants Awarded to
         Council on Aging of Volusia County 04101/05-03/31/06
        Council On Aging of Volusia County, Inc.
  Comments Responding To OIG Draft Report - June 5,2007
indirect costs under a substitute system approved by the Council's oversight
agency. The purpose of the exception is to reduce the undue burden of
administrated compliance for entities that provide grant administrative services
for many program functions, as is the case with the Council.

The U.S, Department of Health and Human Services distributes funding to the
Council through the Florida Department of Elder Affairs and Northeast Florida
Area Agency on Aging, Inc. Pursuant to the oversight agency(ies) requirements,
the Council is required to allocate its indirect costs in accordance with an
approved indirect cost allocation plan mandated by the Florida Department of
Elder Affairs. The treatment of these costs is not optional on the part of the
Council. Rather, all program costs provided and budgeted in the grant agreements
(and related Council proposals) were developed in accordance with, and comply
with, these strict and structured requirements. Furthermore, all program costs
developed pursuant to these requirements were presented to, and approved by, the
grantor agencies in advance of obtaining their respective formal approvals,
without question.

The specific formal indirect allocation method established by the Florida
Department of Elder Affairs (formally known as the KFMG model), referred to
above, and is required to be followed in allocating indirect costs to all program
functions administered by the Council. This allocation rate methodology has been
in effect for many years, and is updated on an annual basis by the Department of
Elder Affairs to be used for budgeting and reporting by the Council

In response to the OIG auditor's findings, after implementation of the required
indirect cost allocation plan by the Council in 2004, the Department of Elder
Affairs instructed the Council to notify the Corporation for National and
Community Service (CNCS) of its intent to utilize the specified indirect cost
allocation rate plan. The Council immediately notified CNCS of the adopted
indirect cost allocation plan. On February 12, 2004, CNCS notified the Council
that for the initial year of the current 3 year contract, the indirect cost allocation
method would not be acceptable, but furnished the Council with alternative
procedures to charge the indirect cost allocation amounts to the FGP and RSVP
programs. The alternative procedures allowed for the Council to charged indirect
costs to the FGP and RSVP programs as direct costs using the same indirect cost
allocation rate as used in the KPMG model. For years subsequent to the initial
year of the respective programs, items of indirect costs would be budgeted and
shown as an itemized part of the FGP and RSVP grant budget application, which
was the procedure utilized by the Council. All grant budgets for FGP and RSVP
were approved by CNCS for these subsequent years. The procedures to be used
by the Council as described above were communicated to the Council in a written
letter memorandum letter issued by the CNCS on February 12,2004.


                                  Response
                                     5
       Agreed-Upon Procedures Review of Senior Grants Awarded to
          Council on Aging of Volusia County 04/01/05-03/31/06
           Council On Aging of Volusia County, Inc.
     Comments Responding To OIG Draft Report - June 5,2007
We are submitting the above information to demonstrate that the Council has
complied in all material respects with OMB Circular A-122, Attachment B, as
well as responding specifically and timely to detailed instructions issued by
CNCS and Florida Department of Elder Affairs with respect to developing
documentation necessary to support salary and wage costs, related payroll tax
expense, and fringe benefits associated with the personal services charged to the
FGP and RSVP program functions.

In conclusion, we respectfully request that all personnel costs included in the OIG
auditors summary of questioned costs, including all direct and indirect
components, be rescinded in their entirety.

2.      Allocations of salaries, fringe benefits and travel expenses were based
        on budgeted labor hours of each COA department.

Response: The salaries, fringe benefits and travel expenses for direct employees
were charged at actual, not budget. The remaining salaries, fringe benefits and
travel expenses were for employees in support roles that are "necessary to the
overall operation of the organization, although a direct relationship to any
particular cost objective cannot be shown". There is no way to determine the
benefits by accounting for time, so other means were used. For example, the
actual costs of payroll staff was allocated at 45% because Foster Grandparents
represent 45% of the total number of individuals paid through the payroll system.
The Council utilizes the MIP software accounting system relative to its
accounting function. The MIP system has the indirect cost allocation rate
programmed into the system to allow for automatic calculation and expense
distribution to each and every program function cost center. Any payroll costs
allocation can be retrieved from the system to document the specific allocated
charges to each program function. Since paycheck dates do not reflect accounting
periods, a test of the system would be required to trace individual employee pay
amounts to the processing group, then to the transfer journal entry, then to the
allocation journal entry, and finally to the program function service group in the
MIP system. The OIG auditor requested and received payroll spreadsheets
produced by the accounting system for all individuals partially charged to the
RSVP and FGP grants. To assist the auditor the final charges to those grants were
hand written on each spreadsheet which could be confirmed by testing.

Again, we respectfully request that all fringe benefits and travel costs included in
the OIG auditors summary of questioned costs, including all direct and indirect
components, be rescinded in their entirety.




                                 Response
                                    6
       Agreed-Upon Procedures Review of Senior Grants Awarded to
          Council on Aging of Volusia County 04/01/05-03/31/06
           Council On Aging of Volusia County, Inc.
     Comments Responding To OIG Draft Report - June 5,2007

3.      In-kind volunteer meals were mistakenly claimed as federal share.

Response: The eGrants and PMS systems are the only places where the Federal
shares of program expenses are declared. Those reports are designed to include
total costs, rather than specific line item costs. The report in question (provided to
the OIG auditor), was a spreadsheet report prepared outside of the accounting
system. The data formatted and supplied directly to the OIG auditor was a
manually prepared summary of costs, and was not an official report. In other
words, the spreadsheet prepared for the OIG auditor was not a report that was
submitted to CNCS for normal reporting purposes. When it was discovered that
an error had been made on the initial spreadsheet prepared for the OIG auditor, a
corrected spreadsheet was prepared and resubmitted to the OIG auditor. The OIG
auditor did not incorporate the corrected spreadsheet in their report. As for
updating the official reports, the Federal share did not change as a result of the
reclassification so no adjustment was necessary. We also note that subsequent
reports are handled on a grant to date basis, so any adjustments would be reflected
before the final grant reports are submitted. We respectfully request that this item
of questioned costs be rescinded in its entirety since nothing was charged to the
Federal portion. See Attachments IV and V.

4.      COA used an inconsistent allocation methodology for claiming
        volunteer support expenses.

Response: The Council's position is that the KPMG model used by Council
during the audit period is consistent. The KPMG model is changed on a quarterly
basis during any reporting period. The change is necessary due to the fact that the
Council's program functions are ever changing with additions of new program
functions and deletions of program functions. When changes occur to the number
of program functions that indirect costs are applied to, the indirect cost allocation
ratios change. This is consistent with the indirect cost allocation plan
requirements.




                                  Response
                                      7
       Agreed-Upon Procedures Review of Senior Grants Awarded to
          Council on Aging of Volusia County 04/01/05-0313 1/06
           Council On Aging of Volusia County, Inc.
     Comments Responding To OIG Draft Report - June 5,2007
5.      COA's policies and procedures did not address how funds would be
        drawn down from the Department of Health and Human Services'
        Payment Management System (PMS).

Response: During the audit fieldwork period, we discussed with the OIG auditor,
that the Council has a policy not to draw down Federal funds from the FGP and
RSVP programs until after the costs have been incurred by the Council. Total
expenses for the program are reduced by the required match to establish how
much should be drawn down from the Federal award amount. Calculations are
based on the total elapsed time for the three year grants. At that time, the Finance
Director of the Council directs accounting staff as to how much and when the
funds are requested. The OIG auditor correctly points out that the written
procedure as shown in the Council's operating and procedural manual is out of
date. The Council has revised the procedure to reflect the current procedure.

6.      COA's policies and procedures do not address its current practice for
        determining what costs are reported on the financial status report
        using the eGrants System.

Response: The OIG auditor has correctly pointed out that the practice changed
without adjustments made to the Council's written accounting and policy
procedural manual. Costs are now reconciled and reported to eGrants and PMS
similarly, and the Federal portion does not exceed the amount actually drawn
down, except in the last quarter of the respective three year grants of FGP and
RSVP, when the amount is adjusted to the actual "earned Federal portion". This
method provides protections to the Council from ever having advanced Federal
funds. The Council has adjusted the written operating and procedural manual.




                                 Response
                                    8
       Agreed-Upon Procedures Review of Senior Grants Awarded to
          Council on Aging of Volusia County 04/01/05-03131/06
           Council On Aging of Volusia County, Inc.
     Comments Responding To OIG Draft Report - June 5,2007

7.      COA did not have adequate supporting documentation for funds from
        its Genera1 fund that were used as match for the Senior Corps grants.

Response: The only way to verify match is to verify disbursements not revenue.
As long as the disbursements equal, at least, the value of the Federal portion plus
the match (which is a product of the Federal portion) the match has been met.
Any disbursement above that amount is "excess" but available for match if
necessary. The only proviso being "in-kind"; it cannot be assigned to the Federal
portion but can be used as match or excess. The Council uses a pooling of cash
method to receive and disburse cash funds. It does not maintain a separate bank
account for each fund. The pooled cash fund disburses funds and charges each
respective program function with the expenditure charge. The FGP and RSVP are
expense reimbursement type grants, therefore any expenditure made by the
overall pooled cash fund has an element of grant revenue reimbursement and the
required local match, therefore expenditures made by the general funds pooled
cash fund represents documentation necessary to support required matching
funds. As documented from previous year financial reports, local funding is far in
excess of the required matching funds per grant agreement for all Federal and
State grants including FGP and RSVP. For example, in the year ended September
30, 2006 required local match for all Federal and State programs equaled
$302,000. In the same period the Council raised $1,564,000 available for match.

8.      There was a lack of separation of duties in the finance department.

Response: The Council does enforce its financial policies. The Fiscal Supervisor
cannot disburse funds, nor calculates how much is to be drawn. The draw is ACH
so the deposit is out of the control of the Fiscal Supervisor. The banks are
reconciled within the accounting system and all ledgers are reviewed by the
Finance Director monthly. The quarterly reports to PMS are created in the
presence and signed by the Finance Director. All disbursements require two
signatures from upper management. Most entries to the system come from
sources other than the general journal. Due to budget constraints, the Council is
unable to hire additional personnel to achieve optimum or complete levels of
segregation of duties. To achieve this level would be impractical from a budget
standpoint. To the extent possible, duties are segregated to serve as a check and
balance on the employee's integrity and to maintain the best control system
possible. In addition all employees are subject to background checks and the
Council carries sufficient insurance just in case there would be misappropriation
of funds. The Council would like to note that we address this issue on an annual
basis with our independent auditors, as the Council desires to achieve the
optimum and complete levels of segregation of duties.



                                 Response
                                     9
            Agreed-Upon Procedures Review of Senior Grants Awarded to
               Council on Aging of Volusia County 04/01/05-03131/06
                Council On Aging of Volusia County, Inc.
          Comments Responding To OIG Draft Report - June 5,2007
SPECIFIC RESPONSES TO FGP PROGRAMMATIC ZLWZEW:

     9.      COA did not fulfill its program responsibilities in the following areas:
             a. Documentation of volunteer orientation and in-sewice training.
             b. Documentation to support annual volunteer evaluations.
             c. Documentation of written assignmentslcare for FGP volunteers
                during the review period.
             d. Documentation regarding the eligibility of the children sewed.
             e. Memorandums of Understanding with volunteer stations did not
                include all required elements.

             a. Response: The Council on Aging of Volusia County has been the
             sponsoring agency for the FGP Program for 37 years. Compliance
             monitorings have been conducted periodically during that time with every
             indication that we were in compliance and we were applauded for our
             outstanding management procedures. THESE MONITORING REPORTS
             NEVER INDICATED THAT IN-SERVICE TRAINING WAS NOT
             BEING PROVIDED FOR THE FOSTER GRANDPARENTS. We can
             only assume that the former director discarded the documentation. We do
             have documentation for all required in-service training since December,
             2005.

             b. Response: Copies of evaluations dated 12/05/05 and 12/09/05 for two
             of the three were found and forwarded to the OIG auditor. The third left
             the Program before her evaluation was done and can no longer be
             contacted.

             c. Response: Again, during compliance monitorings this issue was nevex
             brought out. Care plans have now been requested from all sites. Sixty-
             seven of the seventy-nine Grandparents care plans have been received.




                                     Response
                                        10
  Agreed-Upon Procedures Review of Senior Grants Awarded to
     Council on Aging of Volusia County 04/01/05-03131106
      Council On Aging of Volusia County, Inc.
Comments Responding To OIG Draft Report - June 5,2007

   d. Response: This was never brought to our attention in compliance
             -           -
   monitorinns. All assinnrnentlcare   plans have been reviewed and uudated.
   The overage individuals started in the program many years ago. The
   Council is in the process of getting written mutual agreements that care
   should continue for these mintally challenged individuals.

   e. Response: MOU's were inspected at compliance monitorings. This
   was never reported on our monitoring reports. An amendment to the
   Foster Grandparent Memorandum of Understanding- has been sent to all
   sites for signature which reads:

   "The Volunteer Station will not discriminate against Foster Grandparent
   volunteers or in the operation of its program on the basis ofrace, color,
   national origin, sex, age, political afiliation, religion, or on the basis of
   disability, if the volunteer is a qualijied individual with a disability. "

   All but one Amendment to the MOU have been signed and returned.
   We are waiting for Volusia County School system to channel through their
   Departments before it can be signed.




                             Response
                                11
             Agreed-Upon Procedures Review of Senior Grants Awarded to
                Council on Aging of Volusia County 04/01/05-03131/06
               Council On Aging of Volusia County, Inc.
         Comments Responding To OIG Draft Report - June 5,2007
SPECIFIC RESPONSES TO R S W PROGRAMMTIC REWEW:

       10.    COA did not fulfill its RSVP program responsibilities in the following
              areas:
              a. No documentation that RSVP volunteers met the age requirement.
              b. Agreement that RSVP volunteers agreed to sewe without
              compensation.
              c. No documentation provided of written assignment descriptions for
              each RSVP volunteer.
              d. Incomplete RSVP enrollment forms.

              Response: The Council on Aging has been the sponsoring agency for the
              RSVP Program for over three decades. Over the course of that great
              amount of time several official file and program audits were performed by
              CNCS monitors with no indication that the files were in need of change.
              Furthermore, the enrollment forms have followed the sample document in
              the "RSVP Operations Handbook, April 2000", Appendix 7, p. 1.

              The Council on Aging defers to the expertise of the "Corporation" for
              direction following these audits, as a path to improvement. When no such
              change is requested, program continuance is validated.

              A thorough internal file audit is in process to identify all incomplete
              enrollment formdother necessary file forms, to insure file integrity by
              comprehensively meeting with station mangers and volunteers to complete
              all required documents. For example, all subsequent enrollment forms
              contain the language: "Iunderstand that I am not an employee ofthe
              RSVP Program, the sponsor, the volunteer station or the Federal
              government and agree to serve without compensation. Ifurther agree that
              if1use my personal automobile I will keep in effect, automobile liability
              insurance equal to or greater than the minimum required by the State. "

ADDITIONAL INFORMATION:

Subsequent to the OIG exit conference the Council has appreciated the opportunity to
work with CNCS and has received instruction concerning programmatic changes.

The Council has also submitted much information including the accounting for the entire
three years of the RSVP and FGP grants- Attachments IV & V. The Council is looking
forward to working with CNCS to mutually resolve all issues.


Respectfully submitted.. .


                                       Response
                                          12
                                       -NAWG
                                       FOR
                                          -    A W
                                       COMMUNITY
                                           SERVICE




DEW Gail:




b e ;ve& dtdicPtcd end mmpstem SatfIbar is man&    what i e p r e s n , ~&
                                                                         , m y opiabia 3n mficllem
proiat Meelions mth Advisory Counci! and Bonrd member.?, station ~upcnlsorrand voiuntccn alsc




       G m m t and Perfamr~aamud &sulks AaVerificatiop.
   M w e ~ a n n i m c y ~ ~ t ~ ) O f t b s ~ ~ o w e r e d b y ~ ~ ~ a a d ~ m m w t
   msnt     ~~~                m s m s am WeU c h ~ p ~ton measars the hetilktl wctlt of st-rink
   c h & m and youth ro your cmmunaY.
     = Volunteers, Volunteer Stations md As.'@men*1:
     htsm&g, wdl-orgauized filing sys~cmfor all o f the &we. Fa-three (53) w h t m timeshcets
     and milea@ reimburaemoa form were nvicwed asd seventeen (17) whmcecr Mdm were
     rr/iewed All of than inchided            information. such as age, iacome qualification & annual
     inwme quaIificnti(111 review, ktest pbysieal, bemefioiyy designee, assignmusf ntriptiw, and
     siga-.    Si* (6) Mcmoraodums ofU~dcmaudingwere revinnred and aU ofthem were avrcnt and
     ~~.




                                                                                          -   .*
     p t o j 2 dlrraat has d l i s h e d & y   positi&~woildngrclatiousbips witb botl sterion ~ m v i s o and
                                                                                                          n




fimdraisiag: b a d devclopmem, md m p a o b \ o a ~ ~  e r&+c
                                                    ieaiso      tbst y& pmjcdhss consistently m
tstnbiishrd d c d h e s for submission of rewm ad for maursLr from the Sata M c s . If eimo voa or
Mr.Feinbarrm hve say queshons ar re& assi@mcc, ~ l & edo not hesitata to mnraer me at
(403 b d s a i 7 by^^.wv.




w:         Dan F-L         POP DirePor
                                                                  Counell on Aging ofvalusia counq, 1nc
                                                                         Standard General Ledser
                                                                     Fmm 03IOllO6Thmu& 03131106


  -
01 councdon
AsJw


Accounl Code


6101
  091.141


   3200           FOP Admins~ralion                         oprning
                                                0506 03 4   243

                                                            PenadTafalr

                                                            Subtotal

6105
  091 141


   3200                                                     opening
                                                            244                                                  Allocated line for M3200

                                                            Prtiod Totals                                 -
                                                                                                          0.00

                                                            Subtotal

6106           Annual Leave
  091,141       Fastar Grandparcnta 1Feddm1

   3200           FGP Admm~rirafion             0506 03 4   245                                                  Allaeafed line far M3200

                                                            Period Totals                                 -
                                                                                                          OW

                                                            Subtotal

6110           FICA Expcnae
 091.141        ForliOmndparmt. I F d r r a l

   3200           FOP Administration            0506 03 4   246                                                  Allocated line foiM3200

                                                            PeriodTotals                                  -
                                                                                                          000

                                                            S"bt0ial
                                                          Council on Aging oivalusia County, Inn.
                                                                 srndard Gcncral Ledger
                                                             From 03101lMThrwgh03I3lI06




                                                    03101106                  03lOllO6                -
                                                                                                      9.80           2006 -MARCH PREMIUM

                                                    Perhod Totair                                     -
                                                                                                      9.80    -
                                                                                                              0.00

                                                    Subtobl                                         2,41661

          H d t h Inrumno.
           Fmcr GTandparentSlFcderal

             FOP Administration         AP1030806                                                                    2006 -MARCH PREMIUM


                                                                                                              -
                                                                                                              000




             FOP Adminisbation          0506 03 4   247                       03111106               N    5          Allocalcd line for M3200

                                                    Period Toralp                                    1375     -
                                                                                                              000

                                                    Subiofal                                        2,74615

6115      State Unomploymcnt Insurmea




  32W        FOP Administration         0506 03 4   248                       01131106               zzss
                                                    Period Totals

                                                    Subtotal




   3200      FOP Adminislralion         0506 03 4   249                       03131106               -
                                                                                                     80.52
                                                        Council on Aging ofvolueia Counfy, ins
                                                                Standard General Ledger
                                                           From 03101M6Through Olt31106




                                                  nooumcnt
       ACCOU~IT~~I~                   scmon ID    umber               ~tfectivenat.                DM       credit r~anraok-~
                                                                                                                            ~      ~     ~    ~   ~   i   ~   t   i   ~   ~

                                                  Period To!As                                     80 52    -
                                                                                                            000

                                                  Subtotal                                       2.849.85




          FOP Adminslralmn            0506 03 4   250                      0313 1106             11604            Alloeatrd lint for M3200


                                                                                                            -
                                                                                                            000




       Tclcphane
        Foslcr Grandparma / Federal

                                                                                                                  CELLULAR PHOMZ USAGE

                                                                                                            -
                                                                                                            000




3200      FGP AdminisUatlon           AP1030806   03/03/2006A              03/03/06                18.50          BULK MAIL P E R M X U 239
                                      JV1869      001                      0313 1/06               611.35         FGP
        -
Supplier Other
 Foster Orandparents1Federal


   FGP Administration          APIM1906~CC   01/31106        03131106          -
                                                                               6.39            SUPPLIES-FGPIN SVC

                                             Period Totals                     -
                                                                               6.39     -
                                                                                        0.00

                                             Subtotal                     3.09067




                                             M-06-2621       Olil1106    2.228.62              MARCH 2006 BILLING

                                             Period Totals               2.228.62       -
                                                                                        0.00

                                             Subtotal                     5.11929

Pmfcrsional sewice5 - Legal

 FoaCr Orandparents /Federa

   POP Adminirtrslian          JVIPOS        001             03131106      127.)7              JV1903

                                             Period Totals                 m        7   -
                                                                                        000

                                             Subtotsl                     5.44676




                                             03/06/06        03106106          14.03           MBETING-FOPENRLMNT
                                             03113R006A      03111106        550.00           FOP TRAlNlNGiMEFTMG
                                             01131106        03/31/06         5949      25.50 MEETWG-FOP
                                             03/3112006      0313 1/06       -45.60            METrNG-TRAMNO

                                             P&d   Totals

                                             Subtotal
                                             It2006
                                                              Counoil on Aging ofvoluria Coun*, In*.
                                                                      Stmdard Omem1 Ledger
                                                                 From 03101106 Tlirough 0313I106




                                                        Document
                                                        Number              Effective Date               Debit   Credit Tmranraotian Dwrnpl~on

       Volunteer Recognition
        FOE*. Gra"dp,,"fs    I Federal

          FOP Admimrtration              AP1041906-CC                                                  21158            TRAINING-FOP

                                                                                                       21158     -
                                                                                                                 000

                                                                                                       6.30196

       Volunteer Stipend - Leave
        Foster Grmdparcnl3 I Federal

                                                        001                      03131106
                                                        001                      0313 1106
                                                        001                      0313 1106

                                                        Period Totals

                                                        Sublofa1

       In Kind ME&
         Foster Grrndparenls 1 Fcdenl

                                                                                                                        MARCH MI
                                                                                                                               X U FGP

                                                                                                                 -
                                                                                                                 0.00




       In Kind Peraanncl Exp
         Fortcr Onndparcnls I Federal

                                                                                                                        MARCH MKMD FOP

                                                                                                                  000




7720   In Kind Space Ex0
                                                    Council on Aging ofVolusia County, Inc
                                                           Sfandad Omera1 Ledger
                                                       From 03/01/06 Through 03/31/06


Ui - councr1 on
4w
                                               Document
Account Code      Aceaunt Title   Stlrlon ID   Number             EiTeslwc Date              Debit   Cmdit Tansaction Demipiion




                                               Balance 01
                                               Council on
                                                                                                                 Council on Aging ofvoi"3iaCounly, In*,
                                                                                                                         Standard Ocnerai Ledger
                                                                                                                    From 03/01/06 Through 03/31/06




                                                                                                           Documanl
AocountT~lle                                                                                   Scrrion W   Number

Gmnr Salaric%&Wsclu
  Rciired Senior Volunteer Pis
1 Frdcinl
           R S W Adminirtrafim                                                                             Opening                                    32.521.41
                                                                                                           opening                                         000
                                                                                              0506 03 4    236                      03/31/06          3.82016           Allocated line for MI100




Holiday Pay
     Retired saniar va1untesr Prg
I Fedcral
           R S W Administration                                                                            Oprning
                                                                                              0506 03 4    237                                                          Allocsled line farM3lOO


                                                                                                                                                                  -
                                                                                                                                                                  0.W




Annual L e a w
  Rctired Senior Volunteer P q
IF~daral
           R S W Adrnini3tratian                                                                           Opening
                                                                                              0506 03 4    238                                                          Allocated line for M3100

                                                                                                                                                                  000

                                                                                                           Subtotal

FICA Expenre
  Retired Senior Vouln~t~reitd~enoir~ovlnet~ci~g~~reitd~enoir~ovlnet~ci~PPS
                                                                        g~~reitd~enoir~ovlnet~ci~g
1 Fedval
           RSW Adrnmistrntion                                                                              Opening
                                                                                               0506 03 4   239                                                          Allocated line for M3100

                                                                                                                                                                  000
                                                                   Covnoll on Aging ofvalvsi~counly-1no.
                                                                           Standsid Gsncr.1 Ledge,
                                                                      Fmm 03!01/06 Through 03!3i/06




                                                             Document
AccounlCodo   Account Title                    Scrxion I D   Number              Eff&ve Dale               Debit   Credlt Transaction Dderiptian


              Life Insurance
                Retired Senior Volunteer Prg
              IFederal
                 R S W Adminirtration                        current
              Heal& 1nsurancc
                Retired Senior Volunteer Prg
              /Federal
                 R S W Adminismion                           openins
                                               AP1010806     396726                                                       2006 - M M H PREMIUM

                                                             Pl.iodT~tals                                          -
                                                                                                                   OW

                                                             S"bf0M

              Workers comp
                Retsrd Scnmr Volunteer Prg
              IF~dcral
                 R S W Adminiaualion                         opening
                                               0506 03 4     240                                                          AIloca&d line for M3 100

                                                             Period Taialr                                         -
                                                                                                                   000

                                                             Subfolrl

              State Uncmploymenl l ~ u r a n e c


                Retired Senior Volunteer Prg
              !Federal
                 R S W Administraiion                        opening
                                               0506 03 4     241                                                          Alloested line forM3lOO

                                                             Petiod Totals                                          000

                                                             Subtub1

              Plnm0"
                Rchrrd Senior Volunteer Prg
              /Federal
                  R S W Adminisnnllon                        cuirrnt
                                                             Balance
                                                                         Covnoil on Aging ofVoluria Counb, he.
                                                                                 standard orncrsl Ledger
                                                                            From 03/01/06 Thiovgh 03131106


ill - c,,t,,,*rci1on
Aghg




                       Disabilirilwuianre
                         Retired scnior VolunfcerPr8
                       / Rdsral
                           RSW Administration
                       T m w l -Local
                        Rctircd Senior Volunteer Prg
                       / Federal
                          R S W Administration                     Opening                                       55766
                                                       0506 03 4   242                     Ml3llO6               Bsrs            Alloealed line larM3IOO

                                                                   Period Totrlr                                  85.58   -
                                                                                                                          0.00

                                                                   Subtotal                                  46,79988

                              -
                       Travel Long DisUncc
                         Retied senior volunleer Prg
                       IFcd~rai
                           RSVP Administration
                       Tclcphonc
                        Retired Senior Volunteer Pig
                       1 Federal
                          RSW Administration
                                                       AP1032906

                                                                   Period Totala                                  -
                                                                                                                  1.92




                       partage
                         Retired SeniorVolunr~erFrg
                       IPedcral
                           R S W Adrnmi~traiion                    Opening                                       136.65
                                                       AP1030806   0310312006A              01/03/06              20.00          BULKMAIL PERMIT I( 239
                                                       JV1869      001                      01/11/06              15 73          RSVP
01 - c""ncr10~
A@ng

                                                                   Document
Account Code     AceountTiUe                      S e ~ ~ l oIDn   Number          -   Dsbil   Credit Tranraodon Ueroripiivn

6410             Printing
 093.143           Ratired Senior Volunteer Pig
                 IF~dcral
   3100              R S W Administration                          Current
6412             Supplier - OfTw
 093.143           Retired Senior Voluntscr Prg
                 I Fedcal
   3100             R S W Admmintraiion                            Opening
                                                  APIO3i506        329222993-                         SUPPLIES - OFFICE
                                                  AP1012206        37920                              5000 LABELS - VIALS OF LIFE
                                                                                                                -
                                                                                                      SUPPLIES OFFICEICOMPWER
                                                                                                      SUPPLIES - OFFICEICOWWER
                                                                                                      SUPPLIES - OFFICE




                                                                   Subtotal

6413             Supplm - Compvlrr
 093.143           Retired Senior Volunteer Prg
                 1 Fedornl
   3100             RSW Administration                             Opening
                                                  AP1032906        43522                              PENTIUM4 COMPUTER SYSR MONITORS

                                                                                                      SUPPLIES - OFFICEICOMPUTER

                                                                   Period Totals               -
                                                                                               0.00

                                                                   Subtotal

6119             Supplies - Other
 093.143           Retired Senior Volunfeai Prg
                 IFcdcral
   3100              KSW Administration
6923             hruranm - Volunteers
 W3.143            Rstimd Senior voluniccr vrg
                 i Federal
   3100             RSW Adminislration
6932             ReeruitineUrug TmfinC
                                                                       covnsi1 on Aging of Volu~iacounty, 1nc
                                                                              Standard General Ledger
                                                                          From 0310~106Through03nI106


01 - c",,"cilOn
aging

                                                                  Document
Account Code      Account Title                    Seraon lD      Number             EffeofiueDafc                  Debit         Credit TranraefionDwuiiptlon

                    Retired Senior Volunteer Prg
                  /Federal
                     R S W Administratian                         Cument
                  Mcctlngr
                    Retired ScniorVolunfeerPig
                  IFsdsml
                     R S W Administration                         opening
                                                   APIO4i206      03/31/06
                                                   AfIO41906-CC   03131106




                                                                  Subtotal

                  D"es/Subroripfions
                    Rctired senior Valvnleer erg
                  / Fedual
                      R S W Admmisiration                         Current
                  Volunteer Recognition
                    Ratircd Senior Volunteer Prg
                  I Federal
                      R S W Admmkmtion                            Opening                                       12.71 1.45
                                                   CR1032         014                     03128106                           0-         HILTON DAYTONA BEACH - REFUND
                                                                                                                                        FOR OVERPAYMENT

                                                                                                                     000     0-

                                                                                                            67,751.50




                                                                  current

                    Retired Senior Volunteer Prs
                  1 Federal
                      R S W Admini,".tion                         opening
                                                   AP1032906      728410                                                                FOOD ORDER MlSC-
                                                   API032106FEB   03106106                                                              FLOMRS
                                                      Document
                                                      Nvmber            Eff%h~r
                                                                             Data         Debit    CredilTrannaclion Dlssiip6on


                                                      Pcriod Totals                      107.57    -
                                                                                                   000

                                                      Suhtawl                         68,063.88

7505        In Kind Mealr
  093 113     Roeired Senior Volunteer Prg
            1rcdern1
   3100         R S W Administration                  Opening                          1,306.00
                                             JVl901   001                  03/31/06    -
                                                                                       501.75             MARCH INKIND RSVP

                                                      Period Totals                    -
                                                                                       501.75      -
                                                                                                   0.00

                                                      Subto?A                         69,81163

7600        In Kind Parronnel Exp
 093.143      Retired Scnior Voiunlrcr Prg
            1Fcd.ral
   31W          R S W Adminlrtrafion                  Opcnins                           50058
                                             JVi901   001                  03/31106    -
                                                                                       144.00             MARCH WUNT R S W

                                                      Period TOWS                      -
                                                                                       14400       -
                                                                                                   0.00

                                                      Subto3                          70,51621

1100        in Kind SupplisriOther
 093 143      Retired Senior Valunbsr Prg
            /Federal
   3100         R S W AdmiiiiUatlun                   opening                          ,,107.so
                                             JV19Ol   WI                   03131106       200.00          MARCH WUNT R S W

                                                      Period Tototali                   ?OO.OO     -
                                                                                                   0.00

                                                      Subtotal                        72,42311

7715        In Kmd R~cruiting
            Advenircments
  093 113     Rstmd Smmr Volunteer Prg
            IRdcral
   3100         R S W AdmlniiUalcon
7720        ln Kind SpaceEm
                                                                               Counoil on Agrng o f Volvnia County, Ins.
                                                                                       Standard Censral Ledger
                                                                                  From 03101106Thmu~h03n1/06




                                                                          Do~umc",
Account Code       AcoountTille                               Session I
                                                                      D   Number              Effectiu~Dak -


 093.143             Retired senior Volunte~iPrg
                   IFdernl
   3100                 RSW Adminisfration                                Opening                                          2.99869
                                                              N1901       001                      03131106                 -9              MARCH=   RSW

                                                                          Period Tows                                      m     9   -
                                                                                                                                     0.00

                                                                                                                       17,03762

                   D~prrs~at~aniAmoni~~prrslatlani~monilaliontii
                     Retired Senior Volunscr Prg
                   /Fedoral
                       R S W Mminirtrntian                                Current




                                                                          Balance 01    -
                                                                          Council o n




Rvyan Difference
                                                                                     Council on Aging of Volusia County, 1°C.
                                                                                                      FGp
                                                                                               4/1/2004 -3/31/2007
                                                                                                NO MORE DRAW


                                        I   04/04 - 03/05
                                              Revised
                                                            1                   I
                                                                 lLbkT& 04/06-03107
                                                                         12Months
                                                                04/05 - 03/06
                                                                  Revised
                                                                                    36MonthsI   Revised
                                                                                                           I             I      ma          I              I
Other Volunteer Support Costs
 Orientation & Support Meetings
 Dues &Subscriptions
 Background Screening
 Postage
 Telephone
 Maintenance
 Printing & News Letter
 Promotion Expense
 Rent
 Utilities
 In Kind Personnel
 In Kind Space
 LiabilitylProperty insurance
 Depreciation
 Other
  Total Other Volunteer Support Costs           22,455.16           21,053.90       17,745.22     61,254.28     32,360.84       22,065.03       6,828.41

Section 1

Stipends

Other Volunteer Costs
 Meals
 Volunteer Insurance
 Recognition
 Volunteer Travel
      Total Other Volunteer Costs

              Total Section I1

                  Totals
            Funding Percentages
                                             Council on Aging of Volusia County, Ine.




                                        12 Months      36 Months
                                                                       CNCS             COA   Excess
                                       04/06 - 03107    Revised

Project Personnel Expenses
  Salaries
    Total Project Personnel Expenses
Personnel Fringe Benefits
  Other
  FICA
  Health Insurance
  Retirement
  Life lnsnrance
     Total Personnel Fringe Benefits

Project Staff Travel
  Travel Lncal
  Travel Long Distance
        Total Pmject StaffTravel

Equipment

Supplies
 Office Supplies
 In Kind Office Supplies
 Computer Supplies
            Total Supplies

Contractual & Consultants
 Janitorial Services
 Equipment Lease
 Computer Support
 Legal
 Audit
 Other
   Total Contractual & Consultants
                                                                              Council on Aging of Volusis County, Inc.
                                                                                               -
                                                                                               RSVP
                                                                                        4/1/2004 -3/31/2007



                                         l 2 Months         Months
                                                                         12 Months      36 Months
                                        04/04 - 03/05   04/05 - 03/06                                      CNCS          COA         Excess
                                                                        04106 - 03107    Revised
                                           Revised        Revised
Other Volunteer Support Costs
 Orientation & Support Meetings
 Dues & Subscriptions
 Background Screening
 Postage
 Telephone
 Maintenance
 Printing & News Letter
 Promotion Expense
 Rent
 Utilities
 In Kind Personnel
 In Kind RecruitingIAdvertising             19,003.43        1,365.33            0.00     20,368.76
 In Kind Space
 LiabilityE'roperty Insurance
 Depreciation
 Other
  Total Other Volunteer Support Costs       35,765.21       13,755.97       13,65061      63,171.79         1,421.07   37,964.44     23,786.28

Section I                                   98,857.42       83,605.52       87,642.83    270,105.77       178,991.82     67,211.74   23,902.21

Other Volunteer Costs
 In Kind Meals
 Volunteer Insurance
 Recognition
      Total Other Volunteer Costs           13,264.42       16,927.98       17,222.18     47,414.58        25,189.18   20,294.40      1,931.00

              Total Section I1              13,264.42       16,927.98       17,222.18     47,414.58        25,189.18   20,294.40      1,931.00

                  Totals                   112,121.84      100,533.50      104,865.01    317,520.35       204,181.00   87,506.14     25,833.21
            Funding Percentages                                                                       I      70.00%1      30.00%l
                      APPENDIX C

CORPORATION’S RESPONSE TO AGREED-UPON PROCEDURES REPORT
                                  cororf;~~AL &
                                  COMMUNITY



To:    Carol Bates, Assistant Inspector General for Audit


From: Suzanne Richards, State Program Director, Florida State Office

Cc:    Tess Scannell, Director, Senior Corps
                                                                           "y"-'
       Darryl James, Southern Cluster Area Manager
       Peg Rosenberry, Director, Grants Management
       Rocco Gaudio, Director, Field Financial Management Center
       Jerry Bridges, Chief Financial Officer
       William Anderson, Deputy CFO for Finance
       Andrew IUeine, Deputy CFO for Planning and Program Management
       Shamika Scott, Auditor, OIG
       Ron Hurtiz, Audit Manager, OIG
       Gail Ween, State Program Specialist

Date: July 3 1,2007

RE:    CNCS Response to OIG Draft Audrt Report: Agreed -upon Procedures Review for
       CNCS Senior Corps Grants awarded to COA


The Corporation for National and Community S e ~ c (CNCS)
                                                       e      has received the Draft Audit
Report from the Office of Inspector General (OIG) ) issued on June 5,2007 concerning the
findings from the agreed-upon procedures (AUP) review of Senior Corps grants awarded to
the Council on Aging of Volusia County, FL (COA). We have reviewed the &dings in
detail and acknowledge that the report made several recommendations to disallow costs and
improve compliance with grant requirements.

Please be advised that the Florida State Office has worked with COA to take corrective
actions for many of the noted programmatic findings subsequent to the issuance of the
report. Presently, the Florida State Office has satisfactory documentation from COA that
demonstrates the sponsor is implementing corrective actions as necessary, to fulfill its FGP
and RSVP programmatic responsibilities in all 9 areas identified on pages 12-15 of the IG
report. It is also important to be aware that the Florida State Office refutes COA's repeated
assertion that COA and CNCS have engaged in extensive negotiations regarding the indirect
cost issues and COA was given subsequent approval to apply a DOEA allocation system for
budgeting direct costs in 2004 renewals. Florida State Office and Service Center Staff &d
not negotiate or approve use of the DOEA allocation system. This matter was documented
in a letter the Florida State Office sent to COA on February 12,2004 stating we could not
approve use of this rate and instructing them to eliminate indirect costs and rebudget
reasonable amounts for allowable direct costs

                                           Florida State Office
                                                   *
                           3 165 McCrory Place, # l l 5 Orlando, FL 32803-3750
                                          *                 *
                        tel: 407-648-6 117 email: fl@cns.gov fax: 407-648-6 116            Freedom Corps
                                      *            *
                          Senior Corps AmeriCorps Learn and Serve America                  Make a Difference. Volunteer.
                                                                                 Pg. 2



In conclusion, we will determine the allowability of costs and respo
and recommendations in our management decision when.the final repoft i d abased; w
                                                                    '

will work with the Council on Aging to resolve any outstanding isscies.
